 SIGAR                                   Special Inspector General for
                                          Afghanistan Reconstruction




                                                     SIGAR Financial Audit 13-5




         USAID’s Program to Support the Loya Jirga and Election
         Process in Afghanistan: Audit of Costs Incurred by The Asia
         Foundation




                                                              JUNE
                                                                2013

SIGAR Financial Audit 13-5
June 17, 2013

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development
Ms. Sarah W. Wines
Acting Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by The Asia Foundation under a USAID
cooperative agreement, “Support for the Loya Jirga 1 and Election Process in Afghanistan Program.” 2 The audit
covered the period August 1, 2003, through April 30, 2010, and was performed by Crowe Horwath LLP. It
covered $84,859,955 in expenditures.
The purpose of the cooperative agreement was to support the election process managed by the Afghan
Constitutional Loya Jirga, assist in the establishment of the High Office of Oversight for Anti-Corruption, 3 and
provide technical assistance to the Afghan government.
The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of The Asia Foundation’s Fund Accountability Statement; 4
    •    determine and report on whether The Asia Foundation has taken corrective action on
         recommendations from prior audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in The Asia
         Foundation’s financial internal controls; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Crowe
Horwath audit results and found them to be in accordance with generally accepted government auditing
standards.
Crowe Horwath found that the Fund Accountability Statement presented fairly, in all material respects,
revenues received and costs incurred under the contract and identified no recommendations from prior audits
or assessments for follow-up or corrective action. Nevertheless, Crowe Horwath reported five internal control
deficiencies and four instances of noncompliance, which prompted the auditors to question a total of $26,381


1 A Loya Jirga is a grand council used to resolve political conflicts or other national problems.
2 USAID cooperative agreement no. 306-A-00-03-00504-00 to support the election process, to establish an anti-corruption
office, and to provide technical assistance to the Afghan government.
3 Created by President Karzai in July 2008, the High Office of Oversight for Anti-Corruption coordinates and supervises

Afghanistan’s National Anti-Corruption Strategy. For additional information, see SIGAR Audit 10-2, Afghanistan’s High Office
of Oversight Needs Significantly Strengthened Authority, Independence, and Donor Support to Become an Effective Anti-
Corruption Institution, December 16, 2009.
4 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
in costs. The $26,381 in questioned costs included $5,457 in ineligible costs 5 and $20,924 in unsupported
costs. 6
See table 1 below.
Table 1 - Summary of Questioned Costs
                                                Questioned Costs
                  Category                                                      Ineligible               Unsupported
                                                      Total

 Personnel and benefits                                        $23,081                    $4,810                   $18,271

 Indirect costs                                                 $3,300                       $647                    $2,653

 Totals                                                        $26,381                    $5,457                    $20,924

In addition, the audit found that The Asia Foundation had not remitted an estimated $110,333 in interest
revenue earned on advances given by USAID.
Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:
    1. Determine the allowability of and recover, as appropriate, $26,381 in questioned costs ($5,457
       ineligible and $20,924 unsupported) identified in the report.

    2. Recover the estimated $110,333 in interest revenue earned from advances provided.
    3. Advise The Asia Foundation to address the five internal control findings identified in the report.

    4. Advise The Asia Foundation to address the four compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




5 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.
6 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.




                                                           2
                             The Asia Foundation

Fund Accountability Statement – Support for the Loya Jirga and Election Process

             For the Period August 1, 2003, through April 30, 2010

                 (With Independent Auditor’s Report Thereon)
SIGAR                                                                   The Asia Foundation




Table of Contents
TRANSMITTAL LETTER .............................................................................................................................. 1

SUMMARY .................................................................................................................................................... 2

    BACKGROUND ........................................................................................................................................ 2

    WORK PERFORMED ............................................................................................................................... 2

    OBJECTIVES DEFINED BY SIGAR......................................................................................................... 2

    SCOPE ..................................................................................................................................................... 3

    METHODOLOGY...................................................................................................................................... 4

    SUMMARY OF RESULTS ........................................................................................................................ 4

INDEPENDENT AUDITOR’S REPORT ON THE FUND ACCOUNTABILITY STATEMENT ...................                                                                          7

FUND ACCOUNTABILITY STATEMENT .................................................................................................                                9

NOTES TO THE FUND ACCOUNTABILITY STATEMENT….................................................................. 11

INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ........................................................ 14

INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE .................................................................... 16

SECTION 1 – FINDINGS AND QUESTIONED COSTS ........................................................................... 17

SECTION 2 – SUMMARY SCHEDULE OF PRIOR AUDIT, REVIEW, AND ASSESSMENT FINDINGS 24

APPENDIX A: CALCULATION OF INTEREST PAYABLE ON ADVANCES ........................................... 25

APPENDIX B: VIEWS OF RESPONSIBLE OFFICIALS ........................................................................... 27

APPENDIX C: AUDITOR’S REBUTTAL ................................................................................................... 36




                                                               www.crowehorwath.com

© Copyright 2013 Crowe Horwath LLP

Crowe Horwath LLP is an independent member of Crowe Horwath International, a Swiss verein. Each member firm of Crowe Horwath International is a
separate and independent legal entity. Crowe Horwath LLP and its affiliates are not responsible or liable for any acts or omissions of Crowe Horwath
International or any other member of Crowe Horwath International and specifically disclaim any and all responsibility or liability for acts or omissions of
Crowe Horwath International or any other member of Crowe Horwath International. Crowe Horwath International does not render any professional
services and does not have an ownership or partnership interest in Crowe Horwath LLP. Crowe Horwath International and its other member firms are
not responsible or liable for any acts or omissions of Crowe Horwath LLP and specifically disclaim any and all responsibility or liability for acts or
omissions of Crowe Horwath LLP.
SIGAR                                          The Asia Foundation                                              1




                                                                                   Crowe Horwath LLP
                                                                                   Independent Member Crowe Horwath International

                                                                                   1325 G Street NW, Suite 500
                                                                                   Washington D.C. 20005-3136
                                                                                   Tel 202.624.5555
                                                                                   Fax 202.624.8858
                                                                                   www.crowehorwath.com



Transmittal Letter

May 29, 2013



To the Board of Trustees of The Asia Foundation
465 California Street
San Francisco, California 94104

To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We appreciate the opportunity to provide to you our final report reflecting upon the procedures that we
completed during the course of our audit of The Asia Foundation’s cooperative agreement with the United
States Agency for International Development funding the Support for the Loya Jirga and Election Process
in Afghanistan (Award Number 306-A-00-03-00504-00) Program).

Within the pages that follow, we have provided a brief summary of the work performed. Following the
summary, we have incorporated our report on the Fund Accountability Statement, report on internal
control, and report on compliance. Accordingly, we do not express an opinion on the summary and any
information preceding our reports.

We previously provided to SIGAR a draft report reflecting upon our audit procedures and results. The
Asia Foundation received a copy of the report and provided written responses subsequent thereto.
These responses have been considered in the formation of the final report, in addition to both the written
and oral feedback provided by The Asia Foundation and SIGAR. The Asia Foundation’s responses are
incorporated into this report following our audit reports.

Thank you for providing us the opportunity to work with you and to conduct the audit of The Asia
Foundation’s Support for the Loya Jirga and Election Process in Afghanistan Program.


Sincerely,



Bert Nuehring, CPA, Partner
Crowe Horwath LLP
SIGAR                                           The Asia Foundation                                    2




Summary
Background
The Asia Foundation (the “Foundation”) was awarded a cooperative agreement by the United States
Agency for International Development (“USAID”) to provide support to the government of Afghanistan in
its effort to strengthen governance and continue building democracy. The cooperative agreement – 306-
A-00-03-00504-00 – incorporated an initial ceiling price of $10,000,000 and a period of performance of
August 1, 2003, through November 30, 2004. Through subsequent extensions and budgetary increases,
the final completion date was established as April 30, 2010, with a budget of $86,958,175 through the
twenty-sixth modification to the agreement. The Foundation expended $84,859,955 during the project
period.

Throughout the seven years that project activities were being executed, the Foundation worked to support
the election process managed by the Constitutional Loya Jirga, assisted in the establishment of the High
Office of Oversight for Anti-Corruption within the Office of the President, the Independent Directorate for
Local Governance, and the Ministry of Foreign Affairs, and provided technical assistance to the
government. As reported in the Foundation’s final report on the Strategic Support to the Government of
the Islamic Republic of Afghanistan project, results (unaudited by Crowe Horwath LLP) included, but were
not limited to, the following:

    Transformation of the organizational structure, systems, and management of the Office of
    Administrative Affairs and the Office of the Chief of Staff in the Office of the President;
    Operational improvement in the Center of Government and Office of the President through
    automation of key financial and human resources administrative processes;
    Delivery of training to strengthen staff capacity and workplace knowledge;
    Development of the Independent Directorate for Local Governance’s Afghanistan Social Outreach
    Program and establishment and support for the first shuras in Wardak province;
    Launch of seven simultaneous public consultation workshops on the draft sub-national governance
    policy to gather inputs and comments from key stakeholders; and
    Retraining of twenty percent of the diplomats and staff to better implement Afghanistan’s foreign
    policy.

Project work concluded on April 30, 2010, and the cooperative agreement-funded project has been
closed.

Work Performed
Crowe Horwath LLP (“Crowe”) was engaged by the Special Inspector General for Afghanistan
Reconstruction (“SIGAR”) to conduct a financial audit of The Asia Foundation’s Support for the Loya Jirga
and Election Process in Afghanistan Project.

Objectives Defined by SIGAR
The following audit objectives were defined within the Performance Work Statement for Financial Audits
of Costs Incurred by Organizations Contracted by the U.S. Government for Reconstruction Activities in
Afghanistan:
SIGAR                                            The Asia Foundation                                     3




Audit Objective 1 – Internal Controls

Evaluate and obtain a sufficient understanding of the audited entity’s internal control related to the award;
assess control risk; and identify and report on significant deficiencies including material internal control
weaknesses.

Audit Objective 2 – Compliance

Perform tests to determine whether the audited entity complied, in all material respects, with the award
requirements and applicable laws and regulations; and identify and report on instances of material
noncompliance with terms of the award and applicable laws and regulations, including potential fraud or
abuse that may have occurred.

Audit Objective 3 – Corrective Action on Prior Audit Recommendations

Determine and report on whether the audited entity has taken adequate corrective action on prior external
audit report recommendations or other external assessment recommendations.

Audit Objective 4 – Fund Accountability Statement

Express an opinion on whether the Fund Accountability Statement for the award presents fairly, in all
material respects, revenues received, costs incurred, items directly procured by the U.S. Government and
fund balance for the period audited in conformity with the terms of the award and accounting principles
generally accepted in the United States of America or other comprehensive basis of accounting.

Scope
The scope of the audit included the period from August 1, 2003, to April 30, 2010, and was limited to
those matters and procedures pertinent to the agreement that have a direct and material effect on the
Fund Accountability Statement (“FAS”) and evaluation of the presentation, content, and underlying
records of the FAS. The audit included reviewing the financial records that support the FAS to determine
if there were material misstatements, the FAS was prepared in accordance with accounting principles
generally accepted in the United States of America, and the FAS was presented in the format required by
SIGAR. In addition, the following areas were determined to be direct and material and, as a result, were
included within the audit program for detailed evaluation:

    Allowable Costs;
    Allowable Activities;
    Cash Management;
    Period of Availability of Federal funds;
    Procurement;
    Subrecipient Monitoring;
    Reporting;
    Special Tests and Provisions, including evaluation of The Asia Foundation’s Code of Business Ethics,
    review of the methodology used to determine if a subcontractor was involved in or diverted funds to
    terrorist activities, and conduct of inquiries to determine if known credible dishonest acts, fraud,
    waste, or abuse were reported to the Office of the Inspector General;
    Equipment and Real Property Management; and
    Eligibility.
SIGAR                                           The Asia Foundation                                     4




Methodology
To meet the aforementioned objectives, Crowe identified – through review and evaluation of the terms of
the cooperative agreement executed by and between the Foundation and USAID, the Code of Federal
Regulations, the Federal Acquisition Regulation (“FAR”), and the USAID Acquisition Regulation (AIDAR)
– the criteria against which to test the Fund Accountability Statement and supporting financial records and
documentation. The auditee provided copies of policies and procedures and verbally communicated
those procedures that do not exist in written format to provide Crowe with an understanding of the system
of internal control established by The Asia Foundation to provide reasonable assurance of achieving
reliable financial reporting and compliance with applicable laws and regulations.

Using sampling techniques, Crowe selected samples of expenditures, procurements, inventories, assets
that were disposed of after the cooperative agreement’s performance period, and quarterly financial
reports for audit. Supporting documentation was provided by the auditee and subsequently evaluated to
assess The Asia Foundation’s compliance. Testing of indirect costs was limited to determining whether
indirect costs were calculated and charged to the U.S. Government in compliance with the negotiated
indirect cost rate agreements.

Due to the nature of the contracted work, a significant quantity of subcontractors and beneficiaries were
and are still located in Afghanistan. As such, certain audit procedures were performed on-site in
Afghanistan, as deemed necessary.

Summary of Results
Upon completion of Crowe’s procedures, the auditor identified five findings. Items were classified as
findings if the underlying issue was considered to be a significant deficiency in internal control, material
weakness in internal control, and/or noncompliance with rules, laws, regulations, or the terms and
conditions of the cooperative agreement. Matters that were identified during the course of the audit, but
were not classified as findings using the aforementioned three criteria, were reported to The Asia
Foundation within a management letter dated May 29, 2013.

Crowe issued an unqualified opinion on the Fund Accountability Statement.

Crowe also reported on The Asia Foundation’s internal controls and compliance regarding the Fund
Accountability Statement. Five significant deficiencies in internal control were reported and four findings
pertained to matters of noncompliance. Where internal control and compliance findings pertained to the
same matter, they were consolidated within a single finding. Crowe questioned $26,381 in costs. The
questioned costs are summarized in the following table.
SIGAR                                            The Asia Foundation                                     5




TABLE A: Summary of Findings and Questioned Costs

                                                                                             Cumulative
                                                                          Questioned
      Finding Number                           Matter                                        Questioned
                                                                            Costs
                                                                                               Costs
                               Interest Owed to the Federal
          2012-01                                                             $0.00             $0.00
                               Government
          2012-02              Payment on the Advance Basis                   $0.00             $0.00
          2012-03              Payroll Cost Allocation                       $5,457            $5,457
                               Supporting Documentation for
          2012-04                                                            $20,924           $26,381
                               Employee Labor Charges
          2012-05              Subrecipient Monitoring                        $0.00            $26,381
 Total Questioned Costs:                                                                       $26,381

Finding 2012-01 includes $110,333 in estimated interest that is payable to the Government based on
excess funds maintained by the Foundation from advance payments. This amount is not reflected as a
questioned cost as the amount reflects foregone interest that would have been received or earned by the
Government and does not have an impact on the costs incurred.

Crowe also reviewed prior audit reports to determine if there were findings previously reported that
pertained to the project under audit. No such matters were identified during review of audit reports for the
Foundation’s fiscal years ended September 30, 2003, through September 30, 2011, which encapsulated
the full period of performance. Accordingly, there was no additional follow-up on prior audit findings
required and corrective action was not required to be evaluated.

This summary is intended to present an overview of the results of procedures completed for the purposes
described herein and is not intended to be a representation of the audit’s results in their entirety.

Summary of Management Comments

The Foundation’s management provided responses to each of the findings identified in Crowe’s report on
May 26, 2013. The Foundation’s management stated that:
   1. No imputed interest is due to the U.S. Government due to the Foundation’s having made
       drawdowns for multiple awards simultaneously and, when evaluating the Federal funds on-hand
       for all Federally-funded projects, there not being an excess cash balance;
   2. An archive of written policies and procedures should be maintained and that management should
       review payment requests prior to submission, but also indicated that funds were not received on
       the advance basis;
   3. There was ambiguity regarding which organization funded the work in question, but that the costs
       are eligible under the award;
   4. The timesheets could not be located due to the passage of time, but that the costs are eligible
       based on interviews with staff; and
   5. The subrecipient monitoring files were unable to be located and an electronic archival system will
       be implemented.

References to Appendices

The auditor’s reports are supplemented by two appendices. Appendix A presents a schedule showing
the calculation of the interest amount payable to the Government as referenced in Finding 2012-01.
Appendix B includes the Views of Responsible Officials, which are management’s responses to the
findings presented within the report. In addition to the narrative response, the Foundation provided
supporting documentation that was not available prior to the initial drafting of the report in support of its
SIGAR                                       The Asia Foundation                                 6




positions. The supporting documentation has not been included as a component of Appendix B, but has
been provided to SIGAR under separate cover. Based on management’s responses to the findings and
the supporting documents, Crowe modified the report as it deemed appropriate. Appendix C contains
the auditor’s rebuttal to management’s responses, which is intended to clarify matters of fact or
disagreement between management and the auditor as required by Government Auditing Standards.
                                                                        Crowe Horwath LLP
                                                                        Independent Member Crowe Horwath International




       INDEPENDENT AUDITOR’S REPORT ON THE FUND ACCOUNTABILITY STATEMENT



To the Board of Trustees of The Asia Foundation
465 California Street
San Francisco, California 94104

To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


Report on the Fund Accountability Statement

We have audited the Fund Accountability Statement (the “Statement”) of The Asia Foundation (the
“Foundation”) for award number 306-A-00-03-00504-00 for the period August 1, 2003, through April 30,
2010, and the related notes to the Statement.

Management’s Responsibility for the Fund Accountability Statement

Management is responsible for the preparation and fair presentation of the Statement in accordance with
accounting principles generally accepted in the United States of America; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of
the Statement that is free from material misstatement, whether due to fraud or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on the Fund Accountability Statement based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Statement is free of material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the Statement. The procedures selected depend on the auditor’s judgment, including the assessment of
the risks of material misstatement of the Statement, whether due to fraud or error. In making those risk
assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the Statement in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.




                                              (Continued)

                                                                                                                         7.
Opinion

In our opinion, the Fund Accountability Statement referred to above presents fairly, in all material
respects, budgeted, actual, ineligible and unsupported program revenues, costs incurred and reimbursed,
and remaining fund balance for the Period August 1, 2003, through April 30, 2010, in accordance with the
terms of the cooperative agreement and in conformity with accounting principles generally accepted in the
United States of America.

Report on Other Legal and Regulatory Requirements

In accordance with Government Auditing Standards, we have also issued reports dated May 29, 2013,
2013, on our consideration of the Foundation’s internal controls and on our tests of its compliance with
certain provisions of laws, regulations, contracts, and other matters. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the
results of that testing, and not to provide an opinion on internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be considered in assessing the results of our audit.

This report is intended for the information of The Asia Foundation, the United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.




                                                        Crowe Horwath LLP

May 29, 2013
Washington, D.C.




                                                                                                       8.
                                                The Asia Foundation
                                           Fund Accountability Statement
                                   For the Period August 1, 2003, to April 30, 2010


                                                                                          Questioned Costs

                                      Budget              Actual            Ineligible      Unsupported      Notes
Revenues
USAID - 306-A-00-03-00504-00          $86,958,175       $84,859,954.54


Total Revenue                         $86,958,175       $84,859,954.54                                        4

Costs Incurred
Personnel & Benefits                   $5,183,598        $4,543,395.41           $4,810          $18,271     A, B
Other Direct Costs                    $64,132,324
 Direct Travel Expense                                   $2,438,052.07
 Direct Contractual Services                            $17,794,145.50
 Direct Facilities Expense                                $880,905.28
 Direct Communication & Supplies                         $1,025,933.19
 Direct Equipment Expense                                 $481,347.35
 Direct General Expense                                  $1,077,771.36
 Direct Insurance Expense                                 $169,966.64
 Books for Asia                                               $714.87
 Unburden Contractual Services                          $40,393,506.33
 Unburdenable Equipment                                  $2,492,216.96
 Budget - ODCs                                           $1,991,718.55
                  Subtotal ODCs                         $68,746,278.10


Subrecipient Expenses                  $9,218,555
 G: Travel Expenses                                       $253,741.09
 G: Contractual Services                                    $32,421.00
 G: Commun & Supplies                                        $6,982.00
 G: Equipment Expense                                       $16,455.00
 G: General Expense                                         $37,290.89
 G: Insurance Expense                                          $923.45
 G: Advances                                             $1,635,307.92
 Sub Contracts                                            $138,170.35
 G: Unburdenable Advances                                $1,842,163.76
 Sub contracts - Unburden                                 $179,977.00
  Subtotal Subrecipient Expenses                         $4,143,432.46




                                                                                                                     9.
Implementing Costs
 Budget - Implementation                       $3,611,874             $14,460.00
 Transfer Cost                                                      ($33,944.18)
 Implementing - Logistics                                          $2,314,140.32
 Implementing - Facilities                                          $552,804.50


      Subtotal Implementing Costs                                  $2,847,460.64


                     Subtotal ODC's                               $75,737,171.20


Indirect Costs                                 $4,811,825          $4,579,387.93      $647     $2,653   A, B

Total Costs Incurred                         $86,958,175          $84,859,954.54     $5,457   $20,924


Outstanding Fund Balance                             $0.00                   $0.00                       7




The accompanying notes are an integral part of the Fund Accountability Statement.




                                                                                                               10.
                                             The Asia Foundation1
                                  Notes to the Fund Accountability Statement
                             For the Period August 1, 2003, through April 30, 2010


Note 1. Basis of Presentation

The accompanying Fund Accountability Statement (the "Statement") includes costs incurred under Award
number 306-A-00-03-00504-00 for the Support for the Loya Jirga and Election Process activities for the
period August 1, 2003, through April 30, 2010. Because the Statement presents only a selected portion
of the operations of The Asia Foundation (the "Foundation”), it is not intended to and does not present the
financial position, changes in net assets, or cash flows of the Foundation. The information in this
Statement is presented in accordance with the requirements specified by the Special Inspector General
for Afghanistan Reconstruction ("SIGAR") and is specific to the aforementioned Federal award.
Therefore, some amounts presented in this Statement may differ from amounts presented in, or used in
the preparation of, the basic financial statements.


Note 2. Basis of Accounting

Expenditures reported on the Statement are required to be presented in accordance with accounting
principles generally accepted in the United States of America and, therefore, are reported on the accrual
basis of accounting. Such expenditures are recognized following the cost principles contained in OMB
Circular A122, Cost Principles for Non-Profit Organizations, wherein certain types of expenditures are not
allowable or are limited as to reimbursement.


Note 3. Foreign Currency Conversion Method

For purposes of preparing the Statement, conversions from local currency to United States dollars were
not required. The Asia Foundation draws funds down from USAID on a reimbursement basis and
transfers funds from headquarters accounts wherein funds are maintained in U.S. dollars to the financial
institutions utilized by local offices. The local financial institutions convert funds to the local currency for
payment purposes.


Note 4. Revenues

Revenues on the Statement represent the amount of funds to which the Foundation is entitled to receive
from USAID for allowable, eligible costs incurred under the cooperative agreement during the period of
performance.


Note 5. Questioned Costs

Questioned costs are those costs that are questioned by the auditor because of an audit finding:
(1) which resulted from a violation or possible violation of a provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the use of Federal funds, including
funds used to match Federal funds; (2) where the costs, at the time of the audit, are not supported by
adequate documentation; or (3) where the costs incurred appear unreasonable and do not reflect the
actions a prudent person would take in the circumstances. Questioned costs are presented in the
Statement in two categories: unsupported and ineligible costs. Unsupported costs are those costs for
which adequate or sufficient documentation necessary for the auditor to determine the allowability and
accuracy of costs was not made available. Ineligible costs are those costs that the auditor has
determined to be unallowable or inaccurate and recommended for exclusion from the Statement and for a
final determination by the USAID Agreement Officer.

1
    The Notes to the Fund Accountability Statement denoted herein are the responsibility of The Asia Foundation.



                                                     (Continued)

                                                                                                                   11.
Questioned costs are detailed within the Schedule of Findings and Questioned Costs that accompanies
the Independent Auditor’s Report on Compliance. Total questioned costs identified by the auditor are
$26,381.


Note 6. Costs Incurred by Budget Category

The budget categories presented and associated amounts reflect the budget costs presented within the
final, USAID-approved cooperative agreement budget adopted as a component of the twenty-fifth
modification to the cooperative agreement dated October 26, 2009. Due to certain line items within the
budget approved by USAID including multiple components (i.e. salaries/wages, supplies, and
implementation costs) and the Foundation’s accounting system requiring the segregation of costs by cost
type, the categorical amounts shown on the FAS will not agree to the twenty-fifth modification on a per
line item basis. The Foundation retains supplemental schedules that reconcile the budgeted costs per
the modification to those amounts presented on the FAS.


Note 7. Fund Balance

The fund balance presented on the Statement represents the difference between revenues earned and
costs incurred such that an amount greater than $0 would reflect that revenues have been earned that
exceed the costs incurred or charged to the cooperative agreement and an amount less than $0 would
indicate that costs have been incurred, but are pending additional evaluation before a final determination
of allowability and amount of revenue earned may be made.


Note 8. Currency

All amounts presented are shown in U.S. dollars - the reporting currency of The Asia Foundation.


Note 10. Subsequent Events

Management has performed an analysis of the activities and transactions subsequent to the August 1,
2003, through April 30, 2010, period of performance. Management has performed their analysis through
May 29, 2013 - the date the Statement was available to be issued.




                                                                                                      12.
Notes to the Questioned Costs Presented on the Fund Accountability Statement2


Note A. Questioned Costs – Payroll Cost Allocation

Finding 2012-03 questions $5,457, inclusive of associated indirect costs, due to labor costs having been
charged to the award for work conducted on another project.

Note B. Questioned Costs – Supporting Documentation for Salary and Wage Costs

Finding 2012-04 questions $20,924, inclusive of associated indirect costs, due to timecards not having
been signed by the employee and applicable supervisor as required by Federal cost principles, and lack
of support for the amount charged to the program for one employee.

.




2
  Notes to the Questioned Costs Presented on the Fund Accountability Statement were developed by and are the
responsibility of the auditor.




                                                                                                               13.
                                                                           Crowe Horwath LLP
                                                                           Independent Member Crowe Horwath International




                   INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


To the Board of Trustees of The Asia Foundation
465 California Street
San Francisco, California 94104

To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited the Fund Accountability Statement (the “Statement”) of The Asia Foundation (the
“Foundation”) for the period August 1, 2003, through April 30, 2010, and have issued our report thereon
dated May 29, 2013, which included an unqualified opinion. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the Fund Accountability Statement is free of material misstatement.
Internal Control: The Asia Foundation’s management is responsible for establishing and maintaining
effective internal control. In fulfilling this responsibility, estimates and judgments by management are
required to assess the expected benefits and related costs of internal control policies and procedures.
The objectives of internal control are to provide management with reasonable, but not absolute,
assurance that the assets are safeguarded against loss from unauthorized use or disposition;
transactions are executed in accordance with management’s authorization and in accordance with the
terms of the agreements; and transactions are recorded properly to permit the preparation of the Fund
Accountability Statement in conformity with the basis of accounting described in Note 2 to the Fund
Accountability Statement. Because of inherent limitations in internal control, errors or fraud may
nevertheless occur and not be detected. Also, projection of any evaluation of the structure to future
periods is subject to the risk that procedures may become inadequate because of changes in conditions
or that the effectiveness of the design and operation of policies and procedures may deteriorate.
In planning and performing our audit of the Fund Accountability Statement for the period August 1, 2003,
through April 30, 2010, we obtained an understanding of internal control. With respect to internal control,
we obtained an understanding of the design of relevant policies and procedures and whether they have
been placed in operation, and we assessed control risk in order to determine our auditing procedures for
the purpose of expressing our opinion on the Statement and not to provide an opinion on internal control
over financial reporting. Accordingly, we do not express such an opinion on internal control over financial
reporting.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement
of the entity’s statement will not be prevented, or detected and corrected on a timely basis.




                                                (Continued)
                                                                                                                       14.
Our consideration of internal control over financial reporting was for the limited purpose described above
and would not necessarily identify all deficiencies in the entity’s internal control that might be significant
deficiencies or material weaknesses under standards established by the American Institute of Certified
Public Accountants (“AICPA”) and therefore, there can be no assurance that all deficiencies, significant
deficiencies, or material weaknesses have been identified. We did not identify any deficiencies in internal
controls that we consider to be material weaknesses, as defined above. However, we identified certain
deficiencies in internal control that we consider to be significant deficiencies as identified in the
accompanying Schedule of Findings and Questioned Costs to be significant deficiencies: Findings 2012-
01, 2012-02, 2012-03, 2012-04, and 2012-05.

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance.

The Foundation’s responses to the findings identified in our audit are attached as Appendix B to this
report. We did not audit The Asia Foundation’s responses and, accordingly, we express no opinion on
them.

We noted certain matters that we reported to the Foundation’s management in a separate letter dated
May 29, 2013.

This report is intended for the information of The Asia Foundation, the United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.




                                                           Crowe Horwath LLP

May 29, 2013
Washington, D.C.




                                                                                                          15.
                                                                         Crowe Horwath LLP
                                                                         Independent Member Crowe Horwath International




                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


To the Board of Trustees of The Asia Foundation
465 California Street
San Francisco, California 94104

To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202

We have audited the Fund Accountability Statement (the “Statement”) of The Asia Foundation (the
“Foundation”) for the period August 1, 2003, through April 30, 2010, and have issued our report on it
dated May 29, 2013, which included an unqualified opinion.
We conducted our audit in accordance with Government Auditing Standards issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the Fund Accountability Statement is free of material misstatement
resulting from violations of agreement terms and laws and regulations that have a direct and material
effect on the determination of the Fund Accountability Statement amounts.
Compliance with agreement terms and laws and regulations applicable to the Foundation is the
responsibility of the Foundation’s management. As part of obtaining reasonable assurance about
whether the Fund Accountability Statement is free of material misstatement, we performed tests of The
Asia Foundation’s compliance with certain provisions of agreement terms and laws and regulations.
However, our objective was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.
Four instances of noncompliance that are required to be reported in accordance with Government
Auditing Standards were discovered during our procedures. These instances are described in findings:
2012-01, 2012-02, 2012-03, and 2012-04.
The purpose of this report is solely to describe the scope of our testing of compliance with the terms and
laws and regulations that have a direct and material effect on the Statement and the results of that
testing, and not to provide a legal determination of compliance with those requirements or an opinion on
compliance. Accordingly, this report is not suitable for any other purpose.
This report is intended for the information of The Asia Foundation, the United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.



                                                         Crowe Horwath LLP
May 29, 2013
Washington, D.C.




                                                                                                                     16.
SECTION 1 – SCHEDULE OF FINDINGS AND QUESTIONED COSTS

Finding 2012-01: Cash Management: Interest Owed to the Federal Government

Significant Deficiency and Non-Compliance

Criteria: The provisions of 22 CFR Part 226.22 limit cash advances to the minimum amounts needed and
draw down requests must be timed to be in accordance with the actual, immediate cash requirements for
the program. In addition, 22 CFR Part 226.22 requires that funds received through the advance payment
mechanism must be maintained in interest-bearing accounts and, per the cooperative agreement, interest
in excess of $250 per year shall be remitted to the Government.

Condition: The Asia Foundation, from the beginning of the award through June 2007, obtained cash
advances from USAID in excess of what was needed for immediate cash needs against the letter of credit
approved by USAID for payment of costs incurred under the cooperative agreement. During a review of
amounts drawn down over the course of sixty months relative to each month's expenditures, excess cash
was calculated for twenty-three months. Excess cash was defined, for purposes of the audit, as the
cumulative amount of funds drawn down that exceeded the sum of the project's cumulative expenditures
as of month-end and the expenditures for the subsequent month. The amount of excess cash ranged
from $51,546 to $4,773,731. By the completion of the project, The Asia Foundation had expended the full
balance of funds drawn down from USAID.

The Foundation provided documentation indicating that the advanced funds were held in interest-bearing
accounts. Documentation showing that interest was remitted to the U.S. Government, however, was not
provided.

Utilizing the daily interest rates identified by the United States Department of the Treasury for cash
management purposes, the calculated amount of interest that would have been earned by the Foundation
for drawdowns tied to expenditures through June 2007 (the conclusion of the forty-five month period
assessed) is $111,333. The Asia Foundation is permitted to keep $250 in interest per year per the
cooperative agreement, which reduces the anticipated interest payable to $110,333 for the fiscal years
2004 through 2007. Excess cash balances were not identified in fiscal year 2008. Fiscal years 2009 and
2010 were not evaluated as monthly expenditure reports were not provided for the period. The
Foundation began drawing down funds on a reimbursement basis during fiscal years 2009 and 2010.

See Appendix A of this report for a schedule presenting the calculation of interest owed to the
Government. Note that this schedule was revised upon receipt of additional supporting documentation
provided by the auditee in conjunction with and immediately preceding receipt of management’s
responses. Accordingly, the schedule will not be fully consistent in terms of format to the schedule in
management’s response showing a sixty-month period.

Questioned costs: None. The estimated amount to be remitted to USAID is $110,333. Due to this
amount pertaining to interest earned on advanced funds rather than costs incurred, the amount is not
included on the Fund Accountability Statement.

Effect: USAID had fewer program dollars available for program purposes at the time of the Foundation’s
draws due to the excess cash held by the Foundation.

Cause: The Foundation utilized two different approaches to obtaining payment from USAID and, when
electing to proceed with reimbursements rather than advances, did not expend the remaining cash on
hand from previous advances prior to adjusting the approach. Due to changes in financial management,
including changes in the organization's chief financial officer, the rationale for the change in payment
approach is presently unknown. In addition, The Asia Foundation calculated draw amounts based on
projected cash needs; however, the full amounts were not needed in each instance due to vendor
payments being withheld or delayed pending additional review and evaluation. The resulting excess cash
amounts were not taken into account for future draws, which resulted in trending excess cash balances.




                                              (Continued)
                                                                                                    17.
Recommendation: We recommend that the Foundation remit the $110,333 in interest owed to the
Government or provide documentation to USAID that demonstrates that interest was earned and
previously remitted to the Government.

The Asia Foundation should also conduct an analysis of the cash balances for fiscal years 2009 and
2010, the timing of actual cash disbursements relative to dates that funds were drawn down, and identify
the number of days that elapsed between the use of funds drawn down and the disbursement of
allowable project expenditures to ensure that the reimbursement basis for payment was consistently
utilized. Using the results of the analysis, The Asia Foundation should calculate the amount of interest
owed to the Government, if any, provide the results of the analysis and calculation to USAID, and remit
the payment to the U.S. Department of Health and Human Services as required by the cooperative
agreement and the provisions of 22 CFR Part 226.22.




                                              (Continued)
                                                                                                    18.
Finding 2012-02: Cash Management: Payment on the Advance Basis

Significant Deficiency and Non-Compliance

Criteria: Attachment 1 of the cooperative agreement provides for payment by Letter of Credit, which is an
advance payment mechanism as defined by 22 CFR Part 226.22(c)(1). Recipients receiving payment on
the advance basis are required to maintain written procedures that minimize the time elapsing between
the transfer of funds and disbursement by the recipient, as per 22 CFR Part 226.22(b)(1).

Condition: The Foundation was unable to produce a written policy or procedure for cash advances that
would minimize the time elapsing between the receipt of funds from USAID and disbursement of such
funds. During the course of the project, the Foundation applied two different methodologies to obtaining
payment from USAID. The Asia Foundation obtained payment on an advance basis then later began to
request payment using amounts approximately equal to the project expenditures as shown in project
status reports for a given period. The Foundation considered the second approach to be a
"reimbursement" basis approach.

Questioned costs: None.

Effect: There is a risk of improper payments from USAID due to lack of a documented procedure,
inconsistent approaches to payment methods, and lack of management review of payment requests.

Cause: The Asian Foundation could not identify the reason for the change in payment approach or the
inability to produce a written policy or procedure. The Foundation believes that the time that has elapsed
between the start of the project and the time of the audit has presented challenges in locating historical
policies and procedures.

Recommendation: We recommend that the Foundation:
1) Maintain an archive of organizational policies and procedures, including historical versions of approved
and implemented documents;

2) Require review and approval of a member of financial management prior to submission of payment
requests to help ensure compliance with applicable rules and regulations; and

3) Adopt a written policy or procedure for obtaining and managing advance payments from the
Government.




                                                                                                       19.
Finding 2012-03: Allowable Costs – Payroll Cost Allocation

Significant Deficiency and Non-Compliance

Criteria: OMB Circular A-122 requires that costs be allocable to a Federal award in order for such costs to be
allowable. To be allocable to a Federal project, a cost must be incurred specifically for the award, distributed in
reasonable proportion to the benefits received, or be necessary to the overall operation of the organization.

Condition: Costs associated with hours worked by employee 2773 on the Afghanistan Government Media
Center (AGMC) Canada project were transferred to the "USAID Elections Program" due to costs for the
individual’s labor not having been included in the personnel costs budgeted on the Canada portion of the
project. The original, signed timesheets allocated 140.5 hours and $4,811 to the Canada program. The
Canadian Department of Foreign Affairs and International Trade was one of five entities funding the AGMC
efforts. The memorandum requesting the transfer was dated May 11, 2009, and was applied to each two-week
timesheet period beginning October 17, 2008, through the period May15, 2009 (fifteen total periods). Costs
incurred on the AGMC Canada project are not allocable to the USAID Elections Program and are, therefore,
unallowable.

The following table summarizes the costs transferred into the USAID project account:

                                                                                             Original
        Fiscal Year           Amount              Hours           Timesheet Date
                                                                                         Timesheet Date
            2009                    $225                 6.90         5/2/2009             10/17/2008
            2009                    $332                10.20         5/3/2009             10/31/2008
            2009                    $244                 7.50         5/4/2009             11/14/2008
            2009                    $228                 7.00         5/5/2009             11/28/2008
            2009                    $234                 7.20         5/6/2009             12/12/2008
            2009                    $684                21.00         5/7/2009             12/26/2008
            2009                    $342                10.50         5/7/2009             12/26/2008
            2009                    $144                 4.00         5/8/2009              1/9/2009
            2009                    $172                 4.80         5/9/2009              1/23/2009
            2009                    $273                 7.60         5/11/2009             2/2/2009
            2009                    $122                 3.40         5/10/2009             2/6/2009
            2009                    $115                 3.20         5/12/2009             3/6/2009
            2009                      $97                2.70         5/13/2009             3/20/2009
            2009                    $769                21.40         5/1/2009              5/1/2009
            2009                    $830                23.10         5/15/2009             5/15/2009
           Totals:                 $4,811               140.5

Questioned costs: $5,457 in labor and associated indirect charges based on the 13.45 percent file NICRA rate
for the fiscal year ended September 30, 2009, are ineligible.

Effect: Because of the override of controls by management the Loya Jirga program and thus USAID was
overcharged for costs incurred on behalf of the AGMC Canadian funded project.

Cause: Controls designed to validate time charged to projects (i.e. management review) were overridden by
management due to budget concerns.

Recommendation: We recommend that the Foundation complete the following actions: 1) refund USAID the
$5,457 in labor costs; and 2) issue a memorandum to time approvers to ensure that costs associated with time
worked by employees on a project are allocated based on the relative benefit received by each project.




                                                                                                               20.
Finding 2012-04: Allowable Costs: Supporting Documentation for Employee Labor Charges

Significant Deficiency and Non-Compliance

Criteria: OMB Circular A-122 requires that labor charges be supported by documented payrolls approved
by a responsible official of the organization and that the distribution of salaries and wages be supported
by personnel activity reports (e.g. timesheets). The reports must be signed by the individual employee or
by a responsible supervisory official having first-hand knowledge of the activities performed by the
employee.

Condition: During review of time records for a sample of employees, thirteen timesheets were identified
that were signed by neither the employee nor the supervisor. The thirteen timesheets correspond to
$18,954 in labor costs incurred for 780 hours worked. The table below summarizes the entries for which
exceptions were noted:

        Fiscal Year        Amount             Hours           Employee ID       Timesheet Date
            2004                 $2,040            71.00          1662              1/2/2004
            2004                 $1,900            82.00          1662             12/19/2003
            2004                 $1,520            53.00          2475              1/16/2004
            2005                 $1,227            39.00          2475              1/14/2005
            2006                   $479           479.37          2475              6/30/2006
            2006                   $685            20.00          2475              7/14/2006
            2006                 $1,335            39.00          2475              7/28/2006
            2004                 $1,509            66.00          2584             10/10/2003
            2004                 $1,295            62.00          2584             10/24/2003
            2004                 $1,503            67.00          2584              11/7/2003
            2004                 $1,802            87.00          2584             11/21/2003
            2004                 $1,582            78.00          2584              12/5/2003
            2004                 $2,077           102.00          2584             12/192003
           Totals:             $18,954            780.00

In addition, the financial records for employee 1662 (FY2006, 37.50 hours, $1,768 dollars charged,
timesheet dated 9/22/2006) did not agree to the supporting timesheet, which denoted 52 hours as having
been worked. The result is an estimated under-allocation of charges to the project of $683.

Questioned costs: $20,924 in costs, inclusive of indirect costs, that were charged to the project is
considered to be unsupported.

Effect: The Foundation received Federal funds greater than that to which it was entitled thus reducing the
funds available for other program purposes. The frequency of the omission further brings into question
the reliability of the control over time reporting and the corresponding allocations of personnel costs.

Cause: Failure of the employees and supervisors to certify and approve the specific timesheets were an
administrative oversight.

Recommendation: We recommend that the Foundation provide training to supervisors and employees to
emphasize the importance of timesheet certifications by both employees and supervisors.



                                               (Continued)

                                                                                                      21.
We further recommend the Foundation review project documentation for the periods covered by the
timesheets and validate that the time charged to the program was accurate. The supporting
documentation should be forwarded to USAID and, if the amounts remain unsupported, the Foundation
should refund the costs.




                                           (Continued)

                                                                                              22.
Finding 2012-05: Subrecipient Monitoring

Significant Deficiency

Criteria: Recipients of Federal funds are responsible for establishing and maintaining a system of internal
control over all funds, property, and other assets per 22 CFR Part 226.21.

Condition: The Asia Foundation utilizes a risk-based approach to subrecipient monitoring as documented
within the Sub-Recipient Financial Monitoring and Audit Guide. A sample of fifteen subrecipient risk
assessments was requested. Thirteen of the fifteen risk assessments were not provided. One other
approved risk assessment was provided; however, the assessment was incomplete as it left a series of
questions unanswered.

Questioned costs: None

Effect: The Foundation may have utilized inadequate subrecipient monitoring procedures and exposed
the program to greater risk of noncompliance than necessary.

Cause: Due to the approver and preparer of the risk assessment no longer being employed by TAF, the
Foundation could not determine why an incomplete assessment was approved. The remaining thirteen
risk assessment documents could not be located. Management is unsure why the documents could not
be located.

Recommendation: We recommend that The Asia Foundation adopt an electronic record keeping
procedure to reduce the risk of losing documentation supporting activities completed on Federally-funded
projects.




                                               (Continued)

                                                                                                       23.
SECTION 2 – Summary Schedule of Prior Audit, Review, and Assessment Findings

There have been no prior audits, reviews, or assessments conducted that contained findings directly
related to cooperative agreement number 306-A-00-03-00504-00. Thus, there are no such findings to
report on herein.




                                                                                                24.
APPENDIX A – Calculation of Interest Payable on Advances


                                                          Cumulative Draws -         Excess Cash
                                                                                                        CMIA Daily                         Days
  Month         Expenditures     PMS Draws In Month          Cumulative           (Column D less Next                Interest Payable
                                                                                                         Interest                       Outstanding
   (A)              (B)                 ( C)                Expenditures           Month's XPDTRS)                          (G)
                                                                                                         Rate (F)                           (H)
                                                                 (D)                     (E )

  Oct-03    $    2,215,716.86                         $       (2,215,716.86)      $               -        0.0031%   $            -             -
  Nov-03    $      361,470.35                         $       (2,577,187.21)      $               -        0.0031%   $            -             -
  Dec-03    $    1,496,579.78                         $       (4,073,766.99)      $               -        0.0031%   $            -             -
  Jan-04    $      585,816.44                         $       (4,659,583.43)      $               -        0.0031%   $            -             -
  Feb-04    $      935,893.14                         $       (5,595,476.57)      $               -        0.0031%   $            -             -
  Mar-04    $    2,591,967.82    $    2,733,730.00    $       (5,453,714.39)      $               -        0.0031%   $            -             -
  Apr-04    $      456,893.19    $    1,750,000.00    $       (4,160,607.58)      $               -        0.0031%   $            -             -
  May-04    $    5,136,558.25    $    5,850,000.00    $       (3,447,165.83)      $               -        0.0031%   $            -             -
  Jun-04    $      568,614.06    $    1,641,623.00    $       (2,374,156.89)      $               -        0.0031%   $            -             -
   Jul-04   $     (541,961.85)   $    2,850,000.00    $        1,017,804.96       $               -        0.0031%   $            -             -
  Aug-04    $    2,591,668.00    $    4,550,000.00    $        2,976,136.96       $               -        0.0031%   $            -             -
  Sep-04    $   12,332,604.20    $    9,400,000.00    $           43,532.76       $               -        0.0031%   $            -             -
  Oct-04    $      342,381.52    $    4,900,000.00    $        4,601,151.24       $      4,303,818.16      0.0076%   $      9,773.97                30
  Nov-04    $      297,333.08    $      750,000.00    $        5,053,818.16       $      4,773,731.30      0.0076%   $     10,841.14                30
  Dec-04    $      280,086.86    $             -      $        4,773,731.30       $      4,481,763.06      0.0076%   $     10,178.08                30
  Jan-05    $      291,968.24    $             -      $        4,481,763.06       $      4,234,319.89      0.0076%   $      9,616.14                30
  Feb-05    $      247,443.17    $             -      $        4,234,319.89       $      4,034,042.99      0.0076%   $      9,161.31                30
  Mar-05    $      200,276.90    $             -      $        4,034,042.99       $      3,510,579.54      0.0076%   $      7,972.53                30
  Apr-05    $      523,463.45    $             -      $        3,510,579.54       $      1,870,831.09      0.0076%   $      4,248.66                30
  May-05    $    1,639,748.45    $    1,082,136.00    $        2,952,967.09       $      2,577,998.63      0.0076%   $      5,854.63                30
  Jun-05    $      374,968.46    $             -      $        2,577,998.63       $               -        0.0076%   $            -             -
   Jul-05   $    5,379,299.70    $    2,668,885.00    $         (132,416.07)      $               -        0.0076%   $            -             -
  Aug-05    $    3,960,093.15    $    3,402,216.00    $         (690,293.22)      $               -        0.0076%   $            -             -
  Sep-05    $    7,351,627.93    $    4,779,978.00    $       (3,261,943.15)      $               -        0.0076%   $            -             -
  Oct-05    $      274,545.31    $    2,526,554.00    $       (1,009,934.46)      $               -        0.0125%   $            -             -
  Nov-05    $      701,267.07    $    1,450,000.00    $         (261,201.53)      $               -        0.0125%   $            -             -
  Dec-05    $      335,187.51    $      450,000.00    $         (146,389.04)      $               -        0.0125%   $            -             -
  Jan-06    $    1,918,935.07    $    1,765,217.00    $         (300,107.11)      $               -        0.0125%   $            -             -




                                                                    (Continued)

                                                                                                                                               25.
  Feb-06 $     138,208.08    $      800,000.00  $       361,684.81   $         150,880.89   0.0125%   $     567.16           30
  Mar-06 $     210,803.92    $    1,000,000.00  $     1,150,880.89   $         669,040.59   0.0125%   $   2,514.92           30
  Apr-06 $     481,840.30    $      400,000.00  $     1,069,040.59   $         780,829.60   0.0125%   $   2,935.14           30
 May-06 $      288,210.99    $      300,000.00  $     1,080,829.60   $         691,092.89   0.0125%   $   2,597.82           30
  Jun-06 $     389,736.71    $      588,210.00  $     1,279,302.89   $       1,053,042.25   0.0125%   $   3,958.39           30
   Jul-06 $    226,260.64    $              -   $     1,053,042.25   $         718,382.22   0.0125%   $   2,700.40           30
 Aug-06 $      334,660.03    $      600,000.00  $     1,318,382.22   $         874,017.57   0.0125%   $   3,285.43           30
 Sep-06 $      444,364.65    $      600,000.00  $     1,474,017.57   $       1,311,069.90   0.0125%   $   4,928.31           30
  Oct-06 $     162,947.67    $      200,000.00  $     1,511,069.90   $       1,318,333.00   0.0134%   $   5,295.74           30
 Nov-06 $      192,736.90    $      500,000.00  $     1,818,333.00   $       1,474,737.03   0.0134%   $   5,924.02           30
 Dec-06 $      343,595.97    $              -   $     1,474,737.03   $       1,159,029.96   0.0134%   $   4,655.82           30
  Jan-07 $     315,707.07    $              -   $     1,159,029.96   $         453,200.76   0.0134%   $   1,820.51           30
  Feb-07 $     705,829.20    $      400,000.00  $       853,200.76   $         465,639.66   0.0134%   $   1,870.47           30
  Mar-07 $     387,561.10    $      250,000.00  $       715,639.66   $         106,096.81   0.0134%   $     426.19           30
  Apr-07 $     609,542.85    $       30,000.00  $       136,096.81   $                -     0.0134%   $         -        -
 May-07 $      493,690.05    $      800,000.00  $       442,406.76   $          51,546.23   0.0134%   $     207.06         30
  Jun-07 $     390,860.53    $      100,000.00  $       151,546.23   $                -     0.0134%   $         -        -
TOTAL ESTIMATED INTEREST PAYABLE:                                                                                    $111,333
LESS: INTEREST THAT MAY BE RETAINED PER THE COOPERATIVE AGREEMENT ($250 PER YEAR):                                     $1,000
NET INTEREST PAYABLE:                                                                                                $110,333




                                                                                                                        26.
APPENDIX B - Views of Responsible Officials




                                              27.
Appendix C. Auditor’s Rebuttal




                                 36.
To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202

May 29, 2013

Crowe Horwath LLP, in consideration of the views presented by the management of The Asia Foundation
(“the Foundation”) presents the following rebuttal to certain matters presented by the auditee. The
responses below are intended to clarify factual matters and provide context, where appropriate, to assist
users of the report in their evaluation of the findings and recommendations included in this report. In
those instances where management’s response did not provide new information and support to modify
the facts and circumstances that resulted in the initial finding, we have not provided a response.

Finding 2012-01

Crowe Horwath disagrees with the auditee’s conclusion that there was not an excess cash balance
resulting in interest being payable to the U.S. Government. Title 22, Part 226.22(b)(2) includes the
following language indicating that the funds drawn down should align with immediate cash needs of the
project: the regulation does not make reference to the recipient’s full catalog of projects funded on the
advance basis:

        Cash advances to a recipient organization shall be limited to the minimum amounts needed and
        be timed to be in accordance with the actual, immediate cash requirements of the recipient
        organization in carrying out the purpose of the approved program or project. The timing and
        amount of cash advances shall be as close as is administratively feasible to the actual
        disbursements by the recipient organization for direct program or project costs and the
        proportionate share of any allowable indirect costs.


We concur that the regulation goes on to indicate that the total amount of funds requested by the recipient
should encompass all awards of the organization; however, the amount advanced is to be managed and
determined on a per project basis. In consideration of the regulation excerpt presented above and the
comparison of actual expenditures incorporated within the interest calculation table appearing in
Appendix A to funds drawn down for the award under audit, the finding stands and we recommend that
the Foundation remit $110,333 in interest to the U.S. Government.

Finding 2012-03

Crowe Horwath disagrees with management’s conclusion that the charges are eligible and that USAID
was intended to fund all of the labor for the project. The budget schedule supporting the agreement
executed by and between the Canadian Department of Foreign Affairs and International Trade (DFAIT)
and The Asia Foundation as provided to Crowe Horwath by the Foundation on April 10, 2013,
incorporates payroll and labor charges. The costs incurred for work on the portion of the project funded
by DFAIT should, per the provisions of OMB Circular A-122, be allocated to DFAIT. An exception does
not appear within the cost principles for OMB Circular A-122 presenting insufficient budgeted funds as
support for reallocation of costs borne by another entity to the U.S. Government’s component of a project.
The finding, inclusive of questioned costs, stands.

Finding 2012-04

Crowe Horwath disagrees with management’s conclusion that the charges are allowable. An inability to
locate documentation required to support personnel charges violates the allowability provisions of OMB
Circular A-122. The retention of records – including “Financial records, supporting documents, statistical
records, and all other records pertinent to an award” – in accordance with the provisions of 22 CFR Part
226.53 is the responsibility of the auditee. The finding, inclusive of questioned costs, stands.




                                                                                                        37.
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
